No.

IN THE SUPREME COURT OF THE UNITED STATES

GPI DISTRIBUTORS, INC.,
Petitioner/Applicant,
v.
NORTHEAST OHIO REGIONAL SEWER DISTRICT,
Respondent.

APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH
TO FILE A PETITION FOR A WRIT OF CERTIORARI TO
THE COURT OF APPEALS OF OHIO, EIGHTH APPELLATE DISTRICT

Deborah A. Coleman
COLEMAN LAW LLC
16781 Chagrin Boulevard, #289
Cleveland, Ohio 44120
Tel: (216) 991-4510
Email: dac@dacolemanlaw.com

Andrew S. Pollis
Counsel of Record
CASE WESTERN RESERVE LAW SCHOOL
MILTON A KRAMER LAW CLINIC
11075 East Boulevard
Cleveland, Ohio 44106
Tel: (216) 368-2766
Fax: (216) 368-5137
Email: andrew.pollis@case.edu

CORPORATE DISCLOSURE STATEMENT
Under Sup. Ct. R. 29.6, Applicant GPI Distributors, Inc. states there is no parent or
publicly held company owning 10% or more of the corporation’s stock.

2

APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH
TO FILE A PETITION FOR A WRIT OF CERTIORARI TO
THE COURT OF APPEALS OF OHIO, EIGHTH APPELLATE DISTRICT
TO: The Honorable Sonia Sotomayor, Associate Justice of the Supreme Court of
the United States and Circuit Justice for the Sixth Circuit:
Applicant GPI Distributors, Inc. (“GPI”) respectfully requests, under Sup. Ct. R.
13.5 and 22, a sixty-day extension within which to file a petition for a writ of certiorari.
GPI’s forthcoming petition will challenge the decision in GPI Distributors, Inc. v. Northeast
Ohio Regional Sewer District, No. 106806, 2018 WL 6444097 (Ohio Ct. App. Dec. 6, 2018),
rev’w denied, 128 N.E.3d 243 (Ohio), recons. denied, 128 N.E.3d 243 (Ohio 2019) (copy
attached as Exhibit A). In support of this application, GPI provides the following
information:
1.

The Ohio Court of Appeals for the Eighth Appellate District issued its

decision on December 6, 2018. The Supreme Court of Ohio declined to accept GPI's
discretionary appeal on May 29, 2019 (copy of order attached as Exhibit B) and denied
GPI's timely motion for reconsideration on August 6, 2019 (copy of order attached as
Exhibit C). GPI Distribs., Inc. v. Ne. Ohio Reg’l Sewer Dist., 122 N.E.3d 1291, recons. denied,
128 N.E.3d 243 (Ohio 2019). Without an extension, GPI’s petition for a writ of certiorari is
due on November 4, 2019. With the requested extension, GPI’s petition would be due on
January 3, 2020.

3

2.

This case is a serious candidate for certiorari review because it raises both a

substantial constitutional question and an issue of public interest about which the state
courts are divided.
a.

Respondent, Northeast Ohio Regional Sewer District (the “Sewer District”),

billed GPI $12,047.76 for sewer services during a six-month period when GPI’s real
property was vacant. GPI could not afford to pay the exorbitant and unexplained bill. So
the Sewer District caused the Cuyahoga County Fiscal Officer to place a non-consensual
tax lien on GPI’s property for the full amount.
GPI requested from the Sewer District an administrative hearing to challenge the
bill. The hearing examiner—a Sewer District employee with no legal training—denied
GPI’s requests for pre-hearing discovery and for hearing subpoenas that would have
permitted GPI to produce evidence establishing the miscalculation of its bill. Some of that
evidence resided with a third party, the City of Cleveland Water Department. Without
these litigation tools, GPI had no way to demonstrate that the underlying water-meter
reading (on which sewer charges were calculated) was erroneous. The Sewer District
examiner upheld the bill and the tax lien.
GPI then filed an administrative appeal in the Cuyahoga County, Ohio, Court of
Common Pleas, challenging both the sewer bill and the lien. The Sewer District moved to
dismiss GPI's appeal under Ohio Rev. Code Ann. § 2505.06. That statute ostensibly
required GPI to post a supersedeas bond in the full amount of the disputed $12,047.74
bill—despite the lien already filed against GPI for the same amount—before the trial
court could hear GPI’s administrative appeal.
4

GPI could not afford to post the statutory bond and did not do so. The Sewer
District then moved to dismiss the administrative appeal. In response, GPI challenged
the bond requirement on due-process and equal-protection grounds. It argued that: (1)
the government had already taken GPI's property without due process when it placed
the non-consensual lien; (2) the statute improperly discriminates against administrative
appellants because it imposes a bond requirement only on them (and not on appellants
who appeal from a trial court to an appellate court); and (3) the statute improperly
discriminates against appellants who cannot afford to post the required bond. The trial
court granted the Sewer District’s motion to dismiss without addressing these
constitutional challenges.
GPI appealed to Ohio’s Eighth District Court of Appeals. That court affirmed the
dismissal, likewise declining to address GPI’s constitutional arguments. The appellate
court took the baffling position that GPI could not challenge the bond statute’s
constitutionally without first having complied with it by posting the bond. The appellate
court concluded that GPI’s failure to abide by the statute justified the application of the
constitutional-avoidance doctrine. GPI moved for reconsideration, and the appellate
court denied that motion.
GPI then filed a petition to the Ohio Supreme Court, seeking that court’s
discretionary review. The Ohio Supreme Court declined to hear the case and denied GPI’s
subsequent motion for reconsideration.
b.

GPI’s forthcoming petition will show that: (1) imposing a non-consensual

tax lien based on an erroneous sewer bill—and then imposing an unreasonable bond
5

amount as a condition of judicial review—violates due process; and (2) the pay-to-litigate
bond requirement violates both due-process and equal-protection guarantees. The Ohio
courts should have addressed these arguments on the merits. Instead, the state appellate
court misapplied the doctrine of constitutional avoidance, holding that GPI was required
to comply with the unconstitutional statute as a predicate to complying with it.
“The Constitution controls any legislative act repugnant to it.” Marbury v. Madison,
5 U.S. (1 Cranch) 137, 177 (1803). Both the administrative procedure and the bond
requirement undercut “the fundamental requisite of due process”: that litigants are
afforded a meaningful opportunity to be heard. Goldberg v. Kelly, 397 U.S. 254 (1970). Even
more, they undercut equal-protection guarantees. In Lindsey v. Normet, 405 U.S. 56 (1976),
this Court struck down an Oregon statute requiring an appellant to post a bond before
appealing a forcible-entry-in-detainer action. It held that when a state affords litigants an
appeal, "it cannot be granted to some litigants and capriciously or arbitrarily denied to
others without violating the Equal Protection Clause.” Id. at 77.
The Ohio courts ignored this Court’s precedent—indeed, neglected to address it
even though GPI cited it consistently in its submissions—and arbitrarily denied GPI
access to the court because of GPI’s indigency.
c.

Ohio is not the only state that has the sort of bond statute at issue here. And

the other states are divided on the breadth of Lindsey’s authority and the constitutionality
of pay-to-litigate statutes.
Just under half of the states have upheld these types of statutes. See, e.g., Browne v.
Peters, 360 A.2d 131 (Conn. Super. Ct. 1976) (holding that statute requiring petitioner to
6

post bond in the amount of money at issue did not violate due process or equal protection,
in part because indigency alone has not been regarded as a suspect classification); Matter
of Simpson Manor, Inc., 548 P.2d 246 (Haw. 1976) (holding that the statute requiring the
prepayment of tax did not violated due process); Frantz v. Palmer, 564 S.E.2d 398 (W. Va.
2001) (holding that the statute requiring petitioner to post bond equal to twice the amount
of the judgment and costs was not unconstitutional).
Nearly just as many states, however, have decided the other way. See, e.g., Blair v.
Stump, 617 P.2d 791 (Ariz. 1980) (holding that the double-rent bond requirement was
unconstitutional); Sittig v. Tallahassee Mem’l Reg’l Med. Ctr., Inc., 567 So. 2d 486, 487 (Fla.
Dist. Ct. App. 1990) (holding that the statute requiring petitioner to post bond sufficient
to pay costs and attorney’s fees was unconstitutional as applied); Frizzell v. Swafford, 663
P.2d 1125 (Idaho 1983) (holding that the statute requiring petitioner to post bond in the
amount of judgment and attorney’s fees was unconstitutional).
GPI will show in its petition that this matter warrants the Court’s intervention to
settle the conflict among state courts—and that the correct result is to invalidate a statute
that imposes impermissible financial barriers on parties seeking access to the judicial
system, particularly when they have been deprived of due process in an administrative
forum.
3.

GPI does not file this application to delay. GPI’s undersigned counsel

practices at Case Western Reserve University School of Law’s Milton A. Kramer Law
Clinic Center, where third-year law students work under faculty supervision. The
requested extension will provide the Clinic’s students with the time necessary to
7

